                      ort




      UNACCOMPANIED ENLISTED PERSONNEL HOUSING
       REQUIREMENTS FOR FORT LEWIS, WASHINGTON



Report No. 98-137                         May 26,1998




              Office of the Inspector General
                  Department of Defense
 Additional    Information   and Copies

 To obtain additional copies of this audit report, contact the Secondary Reports
 Distribution Unit of the Analysis, Planning, and Technical Support Directorate at
 (703) 604-8937 (DSN 664-8937) or FAX (703) 604-8932 or visit the Inspector
 General, DOD Home Page at: WWW.DODIG.OSD.MIL.

 Suggestions    for Audits

 To suggest ideas for or to request future audits, contact the Planning and Coordination
 Branch of the Analysis, Planning, and Technical Support Directorate at (703) 604-
 8908 (DSN 664-8908) or FAX (703) 604-8932. Ideas and requests
 can also be mailed to:

                       OAIG-AUD (ATTN: APTS Audit Suggestions)
                       Inspector General, Department of Defense
                       400 Army Navy Drive (Room 801)
                       Arlington, Virginia 22202-2884

 Defense Hotline

 To report fraud, waste, or abuse, contact the Defense Hotline by calling
 (800) 424-9098; by sending an electronic message to Hotline@DODIG.OSD.MIL; or
 by writing to the Defense Hotline, The Pentagon, Washington, D.C. 20301-1900. The
 identity of each writer and caller is fully protected.




Acronyms

ASIP                   Army Stationing and Installation Plan
BAQ                    Basic Allowance for Quarters
BEQ                    Bachelor Enlisted Quarters
DEERS                  Defense Enrollment and Eligibility Reporting System
DFAS                   Defense Finance and Accounting Service
DMDC                   Defense Manpower Data Center
RPLANS                 Real Property Planning and Analysis System
MILCON                 Military Construction
UPH                    Unaccompanied Personnel Housing
                              INSPECTOR GENERAL
                              DEPARTMENT OF DEFENSE
                                400 ARMY NAVY DRIVE
                              ARLINGTON. VIRGINIA 22202




                                                                           May 26,1998


MEMORANDUM FOR AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT: Audit Report on Unaccompanied Enlisted Personnel Housing Requirements
         for Fort Lewis, Washington (Report No. 98- 137)


        We are providing this report for review and comment. We considered
management comments on a draft of this report when preparing the final report. This
report is one in a series about DOD unaccompanied enlisted personnel housing
requirements.

        DOD Directive 7650.3 requires that all audit recommendations be resolved
promptly. The Department of the Army comments were not considered responsive. We
request additional comments on the recommendations by July 28,1998.

         We appreciate the courtesies extended to the audit staff Questions on the audit
should be directed to Mr. Wayne K. Million, at (703) 604-93 12 (DSN 664-93 12) or
Mr. Gary R. Padgett, at (703) 604-9243 (DSN 664-9243). See Appendix E for the report
distribution. The audit team members are listed inside the back cover.




                                         Robert J Lieberman
                                      Assistant Inpsector General
                                             for Auditing
                           Offlice of the Inspector   General,   DOD

Report No. 98-137                                                            May 26,199s
   (Project No. 6CG-0072.07)

         Unaccompanied          Enlisted Personnel Housing Requirements
                               for Fort Lewis, Washington

                                   Executive Summary

Introduction. This report is one in a series that discusses the process used to determine
requirements to support the construction of new unaccompanied enlisted personnel
housing (barracks). The Secretary of Defense has established a new standard design
criterion for future barracks construction. The Military Departments have estimated a
cost of $15.4 billion to replace existing barracks over a 30-year period to meet new
standards. In FY 1997, Fort Lewis, Washington, reported a total requirement of 5,390
barracks spaces, including 1, I42 adequate barracks spaces, 600 barracks spaces approved
for two construction projects, and a deficit of 3,648 barracks spaces.

Audit Objectives.    The overall audit objective was to determine the validity of
requirements estimated for DOD unaccompanied personnel housing. This report provides
the results of the audit of unaccompanied enlisted personnel housing requirements for
Fort Lewis. Audit objectives announced, but not included in this report, will be
addressed in a future summary report.

Audit Results. The Axmy underestimated the Fort Lewis requirement for unaccompanied
permanent party enlisted personnel by 471 barracks spaces. Factors used in the
requirements determination process were not an accurate representation of the
unaccompanied permanent party personnel requiring housing. As a result, future
construction requirements for Fort Lewis have been understated by $3 1.6 million for the
barracks replacement program. For details of the audit results, see Part I.

Summary of Recommendations.         We recommend that the Assistant Chief of Staff for
Installation Management, Department of the Army, recompute permanent party barracks
requirements for Fort Lewis. Specifically, in computing the requirements, the Army
should use closest dependent for basic allowance for quarters codes (BAQ dependent
codes) to compute bachelor factors. We also recommend the use of BAQ dependent
codes to compute bachelor factor percentages that are used in the requirements
determination process for all Army installations. We further recommend that the Army
request the Defense Finance and Accounting Service, Indianapolis provide BAQ
dependent codes for all Army personnel from monthly payroll data that is provided to the
Defense Manpower Data Center. Finally, we recommend that the Army obtain BAQ
dependent codes from the Defense Manpower Data Center for computing bachelor factor
percentages for Army installations.

Management      Comments. The Assistant Chief of Staff for Installation Management,
Department of the Army, nonconcurred with Recommendations 1 through 4. The
Assistant Chief of Staff believes that the report does not present a convincing argument in
favor of the recommendation to use Defense Finance and Accounting Service data in lieu
of Defense Enrolhnent and Eligibility Reporting System data for the computation of
unaccompanied enlisted personnel barracks requirements. The Assistant Chief of Staff
stated that the only problem with Defense Enrollment and Eligibility Reporting System
was that it included all service members within a 40-mile radius. However, this condition
was previously reported in Army Audit Agency Report AA 98-59, “Unaccompanied
Enlisted Personnel Housing Program,” December 29,1997. Based on the Army Audit
Agency report, the contractor responsible for computing barracks requirements for
permanent party soldiers (R&K Engineering) has revised the computation of
determination data. Management also stated that the comparison of Defense Finance and
Accounting Service data and Defense Enrollment and Eligibility Reporting System data
may be inconclusive since the dates of the data were different. Also, it is arguable that
the scope of the audit, one installation, would provide an adequate basis for the
conclusion and recommendation to change the entire methodology. See Part I for a
discussion of management comments and Part III for the complete text of management
comments

Audit Response. The Assistant Chief of Staff for Installation Management comments
are not responsive. The corrective actions taken by the Army will not ensure that
barracks requirements for unaccompanied permanent party enlisted personnel are
computed correctly. The use of zip codes will not identify all soldiers or always reflect
where the soldier’s actual duty station is located. Also, in the case of a single soldier with
dependents, there is currently no differentiation made as to whether the soldier is with or
without custody of the dependent. Failure to recognize single soldiers without
dependents in their custody understates the bachelor factor used in the barracks
requirements determination process, and the number of barracks spaces required by an
installation. Additionally, since the Army uses the same data and process to compute
barracks requirements for all Army installations, we believe that our observation of Fort
Lewis is representative Atmy wide. Therefore, we request that the Assistant Chief of
Staff for Installation Management reconsider the Army position on Recommendations 1
through 4, and provide additional comments in response to the final report.




                                              ii
Table of Contents

Executive Summary                                                            i



Part I - Audit Results
      Audit Background                                                      2
      Audit Objectives                                                      3
      Barracks Requirements for Unaccompanied Permanent Party Enlisted
        Personnel                                                           4

Part II - Additional Information
      Appendix A. Audit Process                                             14
        Scope                                                               14
        Methodology                                                         14
      Appendix B. Summary of Prior Coverage                                 15
      Appendix C. Background for the Barracks Replacement Program           18
      Appendix D. Listing of Basic Allowance for Quarters (BAQ) Dependent
                   Codes                                                    21
      Appendix E. Report Distribution                                       22

Part III - Management Comments
      Department of the Army Comments                                       26
Part I - Audit Results
Audit Background
    In November 1995, the Secretary of Defense signed a memorandum for the
    Secretaries of the Military Departments for design and construction of
    unaccompanied enlisted personnel housing (barracks). The memorandum
    established a new standard design criterion for future permanent party barracks
    construction. The memorandum challenged each Military Department to
    implement the new standard as part of an integrated barracks plan that considers
    optimal use of existing adequate quarters and renovation of quarters that can be
    made adequate. The plan encouraged use of traditional military construction and
    innovative use of private sector solutions. The Military Departments have
    estimated a cost of $15.4 billion to replace existing barracks over a 30-year period
    using the new standard. The determination process identifies barracks space
    deficits that result in construction under the replacement program. Appendix C
    provides additional background information for the new barracks construction
    standard and the Military Departments’ barracks replacement programs.
    Policy Guidance. DOD Manual 4 165.63-M, “ DOD Housing Management,”
    September 1993, establishes policy guidance, procedures, and responsibilities on
    all matters associated with barracks housing. The manual regards permanent
    party and transient personnel categories separately because justification
    requirements differ. Permanent party personnel are:
           l   personnel permanently assigned to an installation, and
           l   students assigned to courses of 20 or more weeks.
    Barracks programmin g considers the housing requirements of all assigned
    unaccompanied permanent party personnel (both on-/off-post), that are eligible for
    barracks space. Those members excluded from programming are assigned duty in
    CONUS, Alaska, or Hawaii. They would be eligible for family housing if they
    had not elected to be unaccompanied by dependents for reasons other than
    availability of housing at the permanent duty location. Projected deficits establish
    the baseline for new construction progr amming or other acquisitions. A deficit
    (or surplus) is determined by identifying and comparing projected requirements
    and assets. Military Departments use long-range personnel strength data from
    planning documents to support permanent party barracks construction. Support
    for transient personnel barracks is determined by averaging the daily number of
    temporary duty and other transient personnel eligible for temporary duty quarters
    on a confirmed reservation basis.
    Army Regulation 2 1O-50, “ Housing Management,” April 2 1,1990, outlines the
    policies, procedures, and responsibilities for determining barracks space
    requirements. The regulation states that unaccompanied personnel housing
    construction requirements are to be based on strength projections from the Army
    Stationing and Installation Plan (ASIP) or equivalent Department of the Army
    documentation. Also, the construction requirements will be reviewed against
    occupancy data reflected in the latest DD Form 2085, “Unaccompanied Personnel
    Housing (UPH) Inventory and Utilization Data” and inventory data reflected in
    real property inventory records. To ensure consistency and accuracy, the Army
    uses the Real Property Planning and Analysis System @PLANS) to determine
    barracks requirements.

                                         2
Audit Objectives

     The overall audit objective was to determine the validity of requirements
     estimated for DOD unaccompanied personnel housing. A specific objective was
     to determine whether barracks requirements and cost estimates developed by the
     Military Departments were supported with appropriate documentation. We also
     announced an objective to review the management control program as it applies to
     the other stated objectives.

     This report provides the results of the audit of barracks requirements for
     unaccompanied enlisted personnel located at Fort Lewis, Washington The
     management control program will be discussed in a future summary report. See
     Appendix A for a discussion of the scope and methodology, and Appendix B for a
     summary of prior coverage related to the audit objectives.
            Barracks Requirements for
            Unaccompanied Permanent Party
            Enlisted Personnel
            The Army underestimated the Fort Lewis requirement for unaccompanied
            permanent party enlisted barracks by 471 barracks spaces. The
            underestimate occurred because bachelor factors used by the Army in the
            requirements computation process were not an accurate representation of
            the unaccompanied permanent party personnel requiring barracks space.
            As a result, future construction requirements for the Fort Lewis barracks
            replacement program have been understated by $3 1.6 million.


Deficit Calculation

     DOD Manual 4165.63-M, requires that barracks projects for new construction,
     repair, improvement, major renovation, and replacement of existing barracks be
     supported with requirements, asset, and deficit data. Army Regulation 210-50,
     “Housing Management” provides guidelines for barracks standards, and
     instructions on computing barracks requirements. The Army regulation identifies
     three categories of personnel requiring separate justifications for barracks
     requirements.

             l   Permanent Party Enlisted Personnel. Personnel permanently assigned to
     an installation and students attending training, whose course of instruction is 20
     weeks or more.
             l  Trainees. Personnel attending initial entry training, including one
     station unit training.
            l Transients. Personnel in temporary duty status and students attending
     advanced individual training, whose course of instruction is less that 20 weeks.
     The Army uses a centralized approach to consistently identify barracks
     requirements for each of the three barracks categories. RPLANS is the integrated
     computer support system that provides data for the Army computation process for
     barracks requirements. For unaccompanied permanent party enlisted personnel,
     the Army computes requirements for grades E-6 and below at installations with
     unaccompanied permanent party enlisted personnel requirements of 100 or more
     barracks spaces. Also, the Army’s unaccompanied permanent party barracks
     requirements computation presumes that 50 percent of E-6 personnel live off post
     in adequate housing.

     Permanent    Party Barracks Requirements. The effective permanent party
     barracks requirement is defined as the number of assigned unaccompanied
     permanent party personnel entitled to barracks space. To calculate the effective
     permanent party barracks requirements, the Army integrates existing facility data
     and determines the number of personnel expected to be assigned to the post 6
     years into the future. At this point, a grade distribution and bachelor factor is

                                           4
Barracks Requirements for Unaccompanied Permanent Party Enlisted Personnel



   applied to determine the number of unaccompanied permanent party personnel
   requiring barracks space. The number of unaccompanied permanent party
   personnel requiring barracks space is multiplied by the number of spaces each
   grade is authorized to determine the total space requirements. The Army
   compares the gross barracks space requirements with barracks assets to determine
   the deficit or surplus.

           Permanent Party Personnel. The term “permanent party personnel” is
   defined as the total number of host and tenant personnel reported on the ASIP that
   are programmed to be assigned to the installation. The Army relies on the ASIP
   to determine its long-range planning numbers. The ASIP reports an installation’s
   personnel strength data 6 years into the future.

           Grade Distribution. The percentage of personnel by grade for each
   programmed unit reported in the ASIP is obtained fi-om the Facility Planning
   System. The ASIP reports total personnel strength for each programmed unit.
   Therefore, the grade distribution is applied to a unit’s total personnel strength
   reported in the ASIP in order to determine the total personnel by grade.

            Bachelor Factors. A bachelor factor is expressed as the percentage of
   single personnel without dependents in each grade. The percentage is determined
   by dividing single personnel without dependents in each grade by the personnel in
   each grade. Another element includes the single parents without custody of
   dependents. The Army uses data reported in the installation’s Defense Enrollment
   Eligibility Reporting System (DEERS) to calculate the bachelor factor for grades
   E-l through E-4, E-5, and E-6. The DEERS report identifies personnel, marital
   status, number of dependents and quarters allowance, if received.

           Entitled Barracks Spaces. An entitled barracks space equates to an
   adequate minimum space standard based on grade. The Army reported barracks
   spaces based on the new 1 + 1 construction standard (for example, the minimum
   space standard for grades E-l through E-4 is 118 square feet). Table 1 shows
   barracks space entitlements for each grade.

                            Table 1. Barracks Space Entitlements
                     Grade                             Entitled Barracks Space
                   E-l toE-4                                1 (118 sq. ft.)
                                                            2 (236 sq. fi.)
                      ;I;                                   2 (236 sq. ft.)

   Barracks Assets. A post commander has two sources of housing assets to satisfy
   barracks requirements: on post, and local housing near the post, except in high-
   cost, remote and overseas locations. Personnel in grades E-7 and above are
   normally considered to be adequately housed. Also, 50 percent of E-6 personnel
   are presumed to live off post in adequate housing.
Barracks Requirements    for Unaccompanied       Permanent Party Enlisted Personnel



Requirements for Unaccompanied Permanent Party Enlisted
Personnel
      As of July 81997, the Army reported that 5,390 barracks spaces were required by
      4,895 unaccompanied permanent party enlisted personnel programmed for Fort
      Lewis. The current on-/off-post inventory reported 1,142 adequate barracks
      spaces. Also reported were two approved military construction projects for 600
      barracks spaces. The total barracks deficit was 3,648 barracks spaces. Our review
      of the Army’s data used to compute barracks requirements showed that inaccurate
      bachelor factors were used to identify the number of personnel requiring
      permanent party barracks spaces. Failure to use bachelor factors that accurately
      reflect personnel requiring ban-a&s space resulted in an underestimate of
      requirements by 364 personnel representing 471 barracks spaces. The current
      inventory of adequate and reported barracks spaces for approved construction was
      supported.
      Fort Lewis Bachelor Factors. The 4,895 personnel reported as unaccompanied
      permanent party enlisted personnel requiring barracks space did not include all
      permanent party personnel. Table 2 shows a grade distribution of the total
      number of Fort Lewis permanent party personnel reported by the Army.

                                     Table 2. Fort Lewis Data
                                                  Number of Permanent
                          Grade                     Partv Personnel
                        E-l to E-4                       8,482
                                                         3,154
                           ;I;                           1,892
                           Total                       13,528


      We verified the total number of permanent party personnel the Army used in the
      requirements determination process with the ASIP data to ensure that the data was
      correct. Also, we evaluated the bachelor factors used in the determination process
      to ensure that the factors accurately reflected the percentage of personnel
      requiring barracks space. As a result, we determined that the bachelor factors the
      Army used did not accurately reflect the percentage of personnel requiring
      barracks spaces. The Army used the DEERS report dated March 3 1,1996 to
      identify the percentage of personnel at the installation authorized barracks space.
      However, the DEERS data included service members within a 40-mile radius of
      the installation that were not housed on Fort Lewis. For example, the 40-mile
      radius for Fort Lewis included Air Force personnel assigned to McChord Air
      Force Base. The Air Force figures should not have been included in the
      computations for barracks space. Also, DEERS data provided for soldiers who
      are divorced or whose marriage has been annulled and have dependents does not
      indicate whether the soldier has custody of the dependent. The Army’s barracks
      computation process assumes that a soldier with dependent is maxried. However,
      if the soldier has a dependent based on a court order and does not have custody of
      the dependent, then the soldier is considered single for barracks computation
      purposes and is entitled to a barracks space.

                                             6
Barracks Requirements      for Unaccompanied       Permanent   Party Enlisted Personnel



   We determined bachelor factors for Fort Lewis from data provided by the Defense
   Finance and Accounting Service @FAS), Indianapolis. Closest dependent for
   basic allowance for quarters codes (BAQ dependent codes) were obtained for
    14,694 personnel assigned to units for which Fort Lewis has responsibility to
   provide barrack space. Each military member has a BAQ dependent code in their
   military pay record to show the status of the closest dependent that entitles the
   member to draw BAQ. For example, Code A means that the member is entitled to
   draw BAQ because the member has a spouse as a dependent. Appendix D lists
   the BAQ dependent codes used by DFAS-Indianapolis. For barracks computation
   purposes, we considered personnel with only the following BAQ dependent codes
   to be members entitled to barracks space:

          l   B - Child in legal custody of someone else

           l G - Grandfather clause (court ordered dependent prior to December 5,
   199 1); child in legal custody of some one else

          l   R- Own Right (BAQ without rate)

   We verified BAQ dependent codes with support contained in personnel records.
   Our review of BAQ dependent codes and military personnel records for 4 16
   personnel showed that all 416 codes were properly supported. Bachelor factor
   percentages were then computed for grades E-l through E-4, E-5 and E-6 by
   dividing the total number of personnel drawing BAQ with the dependent codes B,
   G and R by the total population for each grade. The bachelor factor percentages
   for Fort Lewis increased because the Army computations used DEERS data that
   included personnel from other services with lower bachelor factors than Army
   personnel assigned to Fort Lewis. Table 3 shows the bachelor factors computed
   by the Army and Inspector General (IG), DOD.

                            Table 3. Bachelor Factors Data’

                                     Bachelor            Bachelor
                                    Factor Per           Factor Per
                Grade                IG DOD                     Y         Difference
              E-l to E-4               52.3                50.1              2.2
                 E-5                   19.1                 15.7
                 E-6                   11.7                  7.9             ::;f

   ‘Bachelor factors are expressed as a percent.



   Failure to use the correct bachelor factor percentages has understated permanent
   party barracks requirements for 364 personnel representing 471 barracks spaces.
   Table 4 shows the computation of underestimated unaccompanied permanent
   party personnel and barracks spaces that resulted from the use of inaccurate
   bachelor factors in the Army’s requirements determination process.




                                        7
Barracks Requirements    for Unaccompanied      Permanent Party Enlisted Personnel



                   Table 4. Calculation of Underestimated Unaccompanied
                      Permanent Party Personnel and Barracks Spaces’

                     Permanent         Permanent                 Barracks   Total
                   Party Personnel   Party Personnel            Spaces Per Barracks
          Grade     Per IG DOD         Per Armv’     Difference   Person   &aces4
        E-l to E-4      4,436            4,250           186         1      186
                          602              495           107                214
            ;I;           221              150          71           ;      71
           Total                                           364                   471

        ‘Barracks space for each grade is computed as follows: (number of
        unaccompanied permanent party personnel per IG DOD) - (number of
        unaccompanied permanent party personnel per Army) = (number of unreported
        unaccompanied permanent party personnel) x (barracks space per person) =
        (total barracks spaces) by grade.

       2Data was computed using a total permanent party population of 13,528 and
       multiplying the data by the bachelor factor for each grade reported in Table 3 for
       the IG DOD.

        3Data was computed using a total permanent party population of 13,528 and
        multiplying the data by the bachelor factor for each grade reported in Table 3 for
        the Army.

        ‘Barracks requirements for E-6 personnel are reduced by 50 percent.

      We believe that the Army’s requirements determination process can be greatly
      enhanced by using BAQ dependent codes to compute bachelor factors. DFAS-
      Indianapolis provides payroll data for all Army personnel to the Defense
      Manpower Data Center (DMDC) on a monthly basis. The payroll data currently
      being provided to DMDC does not include all BAQ dependent codes. However,
      if DFAS-Indianapolis provided all BAQ dependent codes to DMDC for the total
      Army population, then the Army could readily obtain the data and compute
      bachelor factors for all Army installations.


Cost of Underestimate
      The Army has underestimated its barracks replacement construction requirements
      at Fort Lewis by $3 1.6 million. The estimated average cost to construct a
      barracks space at Fort Lewis is $67,000. The use of accurate bachelor factor
      percentages in the requirements determination process adds 47 1 barracks spaces
      to the permanent party barracks requirements.




                                            8
  Barracks Requirements for Unaccompanied Permanent Party Enlisted Personnel



Summary

     The Army underestimated the barracks requirements for unaccompanied
     permanent party enlisted personnel at Fort Lewis. The understatement occurred
     because factors used in the requirements determination process to identify
     personnel entitled to barracks space were flawed. Better information is available.

     Accurate identification of personnel entitled to barracks space is an essential part
     of the barracks requirements determination process. The Army’s barracks
     replacement program focuses on reducing the barracks deficit. The Army’s
     deficit of 3,648 permanent party barracks spaces at Fort Lewis needs to be
     increased to 4,119 barracks spaces by adding 47 1 barracks spaces.

     Proper identification of personnel requiring permanent party barracks space is
     needed to ensure that future barracks construction projects are planned to meet
     accurately identified and authorized requirements.


Recommendations, Management Comments, and Audit
Response

     We recommend the Assistant Chief of Staff for Installation Management,
     Department of the Army:

             1. Recompute barracks requirements for unaccompanied permanent party
     enlisted personnel for Fort Lewis. Specifically, in computing the requirements,
     the Army should use closest dependent for basic allowance for quarters codes to
     determine bachelor factor percentages.

           2. Use closest dependent for basic allowance for quarters codes to
     compute bachelor factor percentages that are used for all Army installations.

            3. Request Defense Finance and Accounting Service, Indianapolis to
    provide closest dependent for basic allowance for quarters codes for all Army
    personnel from monthly payroll data that is provided to Defense Manpower Data
    Center.

           4. Obtain closest dependent for basic allowance for quarters codes from
    Defense Manpower Data Center for computing bachelor factor percentages for
    Army installations.

    Management Comments. The Assistant Chief of Staff for Installation
    Management, Department of the Army, nonconcurred with Recommendations 1
    through 4. The Assistant Chief of Staff believes that the report does not present a
    convincing argument in favor of the recommendation to use Defense Finance and
    Accounting Service data in lieu of Defense Enrollment and Eligibility Reporting
    System data for the computation of unaccompanied enlisted personnel barracks
    requirements. The Assistant Chief of Staff stated that the only problem with
    Defense Enrollment and Eligibility Reporting System was that it included all

                                          9
Barracks Requirements    for Unaccompanied       Permanent Party Enlisted Personnel



      service members within a 40-mile radius. However, this condition was previously
      reported in &my Audit Agency Report AA 98-59, “ Unaccompanied Enlisted
      Personnel Housing Program,” December 29,1997. Based on the Army Audit
      Agency report, the contractor responsible for computing barracks requirements for
      permanent party soldiers @&K Engineering) has revised the computation of
      determination data. Management also stated that the comparison of Defense
      Finance and Accounting Service data and Defense Enrollment and Eligibility
      Reporting System data may be inconclusive since the dates of the data were
      different. Also, it is arguable that the scope of the audit, one installation, would
      provide an adequate basis for the conclusion and recommendation to change the
      entire methodology.

      Audit Response.     The Assistant Chief of Staff for Installation Management
      comments are not responsive. Although the condition identified in our report was
      previously identified, the corrective actions taken by the Army will not ensure that
      barracks requirements for unaccompanied permanent party enlisted personnel are
      computed correctly. The contractor responsible for computing barracks
      requirements (R&K Engineering) now computes the bachelor factor for a given
      installation by using zip codes to identify soldiers for whom marital and
      dependency data are obtained from the Defense Enrollment and Eligibility
      Reporting System. This action should identify soldiers actually assigned to an
      installation. However, during our review of Fort Lewis, we found that a zip code
      reported for a soldier’s duty station identified in the Fort Lewis Army Stationing
      and Installation Plan does not always reflect where the soldier’s actual duty
      station is located.

      In a discussion with the subcontractor (ASM Research Inc.), we were informed
      that they extract marital and dependent data from the Defense Enrollment and
      Eligibility Reporting System for R&K Engineering to use in calculating barracks
      requirements. The data extracted and calculation process has not changed. The
      subcontractor provides R&K Engineering with marital and dependency status of
      soldiers assigned to an installation who are identified by the installation’s zip code
      rather than a 40-mile radius. The subcontractors data reports soldiers as single
      without dependents, single, military married to military and married. A single
      soldier without dependents is identified in the Defense Enrollment and Eligibility
      Reporting System as: never married, divorced, or with an annulled marriage. A
      single soldier is identified as divorced or whose marriage has been annulled and
      has a dependent. A soldier identified as manied to another service member is
      reported as military married to military. Finally, a soldier identified as married
      with a dependent is reported as married. In the case of a single soldier with
      dependents, there is currently no differentiation made as to whether the soldier is
      with or without custody of the dependent. The total number of soldiers by grade
      for each of the four marital status categories are provided to R&K Engineering for
      the bachelor factor calculation used to compute barracks requirements. The
      marital data currently provided by the subcontractor understates the computation
      of single soldiers because a single soldier with a dependent is considered married
      regardless of whether the soldier has custody of the dependent. If a soldier is no
      longer married, has a court order to pay child support, and does not have custody
      of the dependent, then the soldier is entitled to a barracks space and should be
      considered as single when computing a bachelor requirement. For example, the
      50.12 percent bachelor factor the Army calculated for the pay grade E-l to E-4


                                            10
Barracks Requirements    for Unaccompanied    Permanent    Party Enlisted Personnel



   located at Fort Lewis included 546 single soldiers with dependents as married
   when the status of the custody of the dependent was not known. We found that
   using Defense Finance and Accounting Service’s closest dependent for basic
   allowance for quarters codes is an accurate identifying method of whether a
   soldier reported as having a dependent has custody, in addition to determining the
   marital status of all soldiers used to calculate a bachelor factor. Failure to
   recognize single soldiers without dependents in their custody understates the
   bachelor factor requirements determination process.

   Since the Army uses the same data and process to compute barracks requirements
   for all Army installations, we believe our observation of Fort Lewis
   is representative Army wide. Therefore, we request that the Assistant Chief of
   Staff for Installation Management reconsider the Army position on
   Recommendations 1 through 4 and provide additional comments in response to
   the final report.




                                       11
Part II - Additional Information
Appendix A. Audit Process

Scope

        We reviewed the process and supporting documentation used to develop the
        unaccompanied enlisted personnel housing requirements for Fort Lewis. We
        limited the scope of the audit to personnel housing requirements for
        unaccompanied permanent party enlisted personnel. Also, the scope of the audit
        is limited in that we did not review the management control program. The
        management control program will be discussed in a separate summary report.


Methodology

     We performed the audit using DOD and Army guidance for developing batracks
     requirements. We relied on computer-processed data when reviewing the Army
     Stationing and Installation Plan November 15,1996 data for future manpower
     estimates used in the requirements determination process. The organization’s data
     was uniformly produced and verified. We reviewed data adjustments and
     determined the data to be adequate and reliable.

     Audit Period, Dates, and Standards. This economy and efficiency audit was
     made from March 1997 through January 1998 in accordance with auditing
     standards issued by the Comptroller General of the United States as implemented
     by the Inspector General, DOD.

        Contacts During the Audit. We visited or contacted individuals and
        organizations within the DOD. Further details are available on request.




                                            14
Appendix B. Summary of Prior Coverage

Inspector General, DOD

    Inspector General, DOD Report No. 97- 142, “ Unaccompanied Enlisted Personnel
    Housing Requirements for Marine Corps Base Camp Pendleton, California,” May
    9,1997 states that Marine Corps Base Camp Pendleton overestimated the number
    of unaccompanied permanent party enlisted personnel requiring barracks by 5,184
    spaces. The overestimate occurred because guidance for barracks requirements
    did not specify removing ineligible Marines from personnel data used to compute
    barracks requirements. The report recommended that the Commandant of the
    Marine Corps revise guidance for computing barracks requirements to require that
    transient, deployed, and enlisted personnel in grades E-6 and above residing in the
    local community be excluded from personnel strength data used to determine
    permanent party barracks requirements. Also recommended was that the
    Commanding General, Marine Corps Base Camp Pendleton remove transient
    personnel, deployed personnel on a rotational cycle, and personnel in grades E-6
    and above residing in the local community from permanent party personnel data
    used in determinin g barracks requirements. The Marine Corps agreed with the
    recommendations to revise guidance for computing barracks requirements and to
    remove transient personnel, deployed personnel and E-6 personnel residing in the
    community from data used to determine permanent party barracks requirements.

    Inspector General, DOD Report No. 98-003, “Unaccompanied Enlisted Personnel
    Housing Requirements for Marine Corps Base Camp Lejeune, North Carolina,”
    October 3,1997 states that Marine Corps Base Camp Lejeune overestimated the
    number of unaccompanied permanent party enlisted personnel requiring barracks
    by 6,591 spaces. The overestimate occurred because guidance for barracks
    requirements did not specify removing ineligible Marines from personnel data
    used to compute barracks requirements. The report recommended that the
    Commandant of the Marine Corps revise guidance for computing barracks
    requirements to require that transient, deployed, and student personnel whose
    training is less than 20 weeks be excluded from personnel strength data used to
    determine permanent party barracks requirements. Also recommended was that
    the Commanding General, Marine Corps Base Camp Lejeune remove transient
    personnel deployed personnel on a rotational cycle, and student personnel whose
    training is. less than 20 weeks from permanent party personnel data used in
    determining batracks requirements. The Marine Corps agreed with the
    recommendations to revise guidance for computing barracks requirements and to
    remove transient personnel, deployed personnel and student personnel whose
    training is less than 20 weeks from data used to determine permanent party
    barracks requirements. The scheduled completion date from reissuing Marine
    Corps guidance for determinin g barracks requirements was November 30,1997.




                                        15
Appendix B. Summary of Prior Coverage



Army Audit Agency

      U.S. Army Audit Agency Report No. AA 98-59 “Unaccompanied Enlisted
      Personnel Housing Program,” December 29,1997 states that the Army overstated
      its barracks requirements for permanent party soldiers in CONUS by about 7,200
      spaces at an estimated cost of $217.7 million. The overestimate occurred because
      the database used to compute “bachelor factors” for permanent party soldiers
      included: trainees and students in advanced individual training (AIT), non-Army
      Service members not housed at Army installations, and students attending AIT
      whose course of instruction was 20 weeks or longer. Although, these students
      were authorized permanent change of station entitlements and qualified as
      permanent party personnel; however, they were still receiving entry-level training
      and should be excluded from the Army’s determination requirement for the “one-
      plus-one” design standard criterion. The report recommended that the Army
      recompute barracks requirements for permanent party soldiers, with the necessary
      adjustments for trainees and students ( including students attending AIT
      instructions 20 weeks or more), soldiers in grade E-6 who are housed off post
      from the calculations of soldiers adequately housed off post and enlisted
      personnel housed off post because of barracks renovation. Also, the Army should
      ensure that the “ bachelor factor” used in the computation is based only on
      enlisted soldiers assigned to the units at the installation, and include trainees and
      students. The Army Assistant Chief of Staff for Installation Management
      concurred with all the recommendations.

      U.S. Army Audit Agency Report No. AA 97-97, “Space Utilization, U.S. Army
      Infantry Center and Fort Benning, Fort Benning, Georgia,” January 6,1997 found
      that new construction requirements for barracks to house permanent party soldiers
      were overstated. Fort Benning overstated barracks requirements for the Ranger
      regiment by 174 spaces at an estimated cost of $6.9 million because it included
      single soldiers with dependents in the requirements determination process
      (computations). The report recommended that the command recalculate batracks
      requirements for permanent party soldiers, excluding single soldiers with
      dependents from the calculations and to obtain the projected strength figures from
      the most current ASIP. Also, the command to reduce the requirement for
      construction of permanent party barracks in the installations master plan to
      accurately reflect the shortage of adequate barrack space, revise the FY 97
      barracks construction project for the Ranger regiment and delete the excess
      requirements is included in the project justification. The Command concurred
      with all the recommendations.

      U.S. Army Audit Agency Report No. AA 96-218, “Audit of Barracks
      Requirements, U.S. Army Signal Center and Fort Gordon, Fort Gordon,
      Georgia,” June 14,1996 found that barracks requirements for permanent party
      soldiers at Fort Gordon were significantly overstated. Fort Gordon overstated
      barracks requirements because it incorrectly computed the number of
      unaccompanied enlisted soldiers authorized barracks space. Specifically, single
      soldiers with dependents were counted as bachelors and included in the
      computation of barracks requirements. By overstating requirements, Fort Gordon
      incorrectly concluded that there was a shortage of adequate barracks space for its
      permanent party soldiers, and needed to build a 300-person barracks during
      FY 1998 at an estimated cost of $17.5 million. The report recommended that the

                                            16
                                     Appendix B. Summary of Prior Coverage



command cancel construction of the 300-person barracks project. The Army
nonconcurred with the recommendation and stated that a deficit still exists to
support the 300-person barracks because of the new “ l+l” construction standard.
However, the Army agreed to reevalete barracks requirements because of the
new construction standard and have the results validated. Army Audit considered
the comments to be responsive.




                                  17
Appendix C. Background for the Barracks
Replacement Program

New’Design and Construction of Barracks Housing

    On November 6,1995, Secretary of Defense Memorandum “Design and
    Construction of Unaccompanied Enlisted Personnel Housing (Barracks),”
    established a maximum allowable area per occupant for new, permanent barracks
    construction. The memorandum complies with United States Code, Title 10,
    Section 2856 to establish a new standard design criterion for future permanent
    party barracks construction. The standard for new construction does not apply to
    barracks constructed for transients, recruits, or members receiving entry-level skill
    training. The standard for new construction is optional for barracks outside
    CONUS funded by other than the United States or constrained by site conditions,
    and for barracks to house other than the full-time active duty Service members.

    New barracks construction will be based on a module consisting of two individual
    living/sleeping rooms with closets and a shared bath and service area. The
    standard for new construction is referred to as ” 1 + 1.‘I Designs should be
    developed to produce 11m2 (118 square feet) of net living area per living/sleeping
    room, measured from the inside face of the walls to include all clear floor areas.

    The standard for new construction is to be implemented as soon as practical,
    taking into consideration that barracks projects are at various stages of design and
    construction. The standard for new construction may be waived by the Secretary
    of a Military Department under the following circumstances:

            l wherever the Secretary determines that unique mission requirements or

    operational commitments are better served by congregated living (for example,
    Seal Teams, Force Reconnaissance Marines, Special Forces), and

            l wherever the Secretary determines that the collective quality of life for

    members of a Military Department would be enhanced by a lesser construction
    standard, but providing new quarters to a larger number of members.

    Existing barracks will not be considered inadequate for assignment because of the
    new construction standard. The Secretary challenged each Military Department to
    implement the new standard as part of an integrated barracks plan that considers
    optimal use of existing adequate quarters, renovation of those that can be made
    adequate through traditional military construction, and innovative use of private
    sector solutions.


Implementation Plans

    Each of the Military Departments submitted a plan to the Secretary of Defense to
    implement the new construction standard service wide. The plans contain each

                                          18
              Appendix C. Background for the Barracks Replacement Program



Military Department’s projected number of permanent party space requirements,
existing permanent party barracks configuration, resources required and projected
schedules for converting existing barracks to the new 1 + 1 construction standard.
The following figure shows the collective impact of these plans over a 20-year
period. During that period, the number of spaces served by gang latrines would
be reduced from 115,520 to 700. Spaces occupied by three or more persons
would decline from 123,316 to 30,978.



    Spaces
    500,000

                                                   -----~~-~~----~~~----
    @WOO

    300,000        -_---_


   200,000


    100,000


              0
                   FY95       FYOO          FYO5        FYlO        FY 15
                                         S-Year Plans
             q Spaces/Gang   Latrines       E4 3+Spaces Per Room
             Cl 2 Spaces Per Room           I331 Space Per Room




                                    19
Appendix C. Background for the Barracks Replacement Program



Composite Barracks Configuration
      The table below provides data regarding the Military Department’s estimated
      barracks requirements, tiding required to convert existing barracks to the new
      construction standard, and the timelines for completing the conversions.

                  Military Department Barracks Implementation           Plans
                         End         Total                 Resources Rewired
         Military       State     Permanent                  ($ in millions)
        Debartment     Reached     Reauired      MILCON     O&M        Other1     Total
       Am;y             2020       199,000        $6,480   $1,710     $1,295    $ 9,485
       Navy             2013       144,100         2,035     325         299      2,659
       Air Force        2019       115,710          799      320         481      1,600
       Marine Corps     2035        97.834         1,125     300         270      1.695
         Total                    556,644        $10,439   $2,655    $2,345     $15,439

       lThe Other cate oiy is antici ated foreign ovemment investments (Payment-In-
       Program, Repub Yic of Korea R ogram, and Bapanese Facilities Improvement Program).




                                            20
Appendix D. Listing of Basic Allowance for
Quarters (BAQ) Dependent Codes
   The following table provides the BAQ dependent codes and a description of each
   code showing relationship that entitles the member to the housing allowance.

         BAQ
      Dependent
        Code                                Descrbtion


                              Spouse
                              Child in legal custody of someone else
                              Child in member’s custody
                              Parent
                              Stepchild
                              Grantiather clause (court ordered dependent prior to
                                December 5,199l); child in legal custody of
                                 some one else
           I                  Member married to member (own right - BAQ
                                without rate)
           K                  Ward of the court
                              Parent-in-law
           ii                 Own right (BAQ without rate)
           S                  Student (child over 21 years of age attending
                                accredited college)
                              Handicap (Incapacitated child over 21 years of age)
          GX
                              Member married to member with a dependent child
                              Custodial parent receiving child support whose
                                divorce decree or written agreement is dated
                                  between August 1,199l and June 30,1992




                                       21
Appendix E. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition and Technology
  Deputy Under Secretary of Defense (Industrial Affairs and Installations)
  Director, Defense Logistics Studies Information Exchange
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (ProgramBudget)
Assistant Secretary of Defense (public Aff’s)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Financial Management and Comptroller)

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Logistics Agency
Director, Defense Manpower Data Center
Director, National Security Agency
   Inspector General, National Security Agency
Inspector General, Defense Intelligence Agency




                                           22
                                                      Appendix E. Report Distribution



Non-Defense Federal Organizations and Individuals
Office of Management and Budget
Technical Information Center, National Security and International Affairs Division,
   General Accounting Office

Chairman and ranking minority member of each of the following congressional
  committees and subcommittees:

  Senate Committee on Appropriations
  Senate Subcommittee on Defense, Committee on Appropriations
  Senate Committee on Armed Services
  Senate Committee on Governmental Affairs
  House Committee on Appropriations
  House Subcommittee on National Security, Committee on Appropriations
  House Committee on Government Reform and Oversight
  House Subcommittee on Government Management, Information, and Technology,
    Committee on Government Reform and Oversight
  House Subcommittee on National Security, International Affairs, and Criminal Justice,
    Committee on Government Reform and Oversight
  House Committee on National Security




                                           23
Part III - Management Comments
Department of the Army Comments




     DAIM-FDH                      n
                                                               APR 87 l99

     MEMORANDUM THR



     FOR lnspactor Ganeral Department of Defense, AlTN: Mr. Gary Padgatt
           (CMD), 400 Army Navy Drive, Room 801, Arlington, VA 22202-2884


     SUBJECT: Draft Report, Unaccompanied Enlistad Perswuwl Housing
     Requiramants For Fort Lewis, Washington

     1. Reference, Project No. 6CG-OO72.07.dated 17 F&wary 1998, SAB.

     2. Encl~findwrreaponsetotheDd)IGaudit~insubiectreport                         We
     do not agree with your recommsndatb to change from the Dafansa Eligibility
     Enrollmant Reporting System (DEERS) databaw to tha Defense Finance and
     Accounting Sanka (DFAS) database for the dstennination of barracks
     raquiraments. Rationale for this position is explained in more datailgdin tha
     attachedraspnsa.

     3. The point of contact for this action is Mrs. Birgitt Seymour, (703) 428-7511.




     EflCl
     as                                           M@orGeneral,
                                                  Ass&ant Chief w  of
                                                    for Installation Management




                                             26
                                                    Department       of the Army Comments




              Assistant Chief of Staff for lnstaktion Management Reply
                    Project No. 6CG-CXl72.07,February 17,1996
              Unaccompanied Enlisted Personnel Housing Requirements


    AUMT oBJECl’B/B - Tha overell audit ob@tive was to determine the validity of
    requirements estimates for DODunaccompanied personnel housing. This report
    provides the results of the audii of lMccompBn ied enlisted personnel housing
    requirements at Fort Lewis.

    AUDIT RESULTS -The Army underestimated Fort Lewis requirement for
    unaccompanied permanent party enlisted personnel by 471 barra& spaces.
    As a result, future construction costs for Fort Lewis have been understated by
    $31.6 million for their barracks replacement program.

    SUMMARY OF RECOMMENDAllONS - We recommend that the Army
    Assistant Chief of Staff for Installation Management recompute permanent party
    banad<s requirements for Fort Lewis. Specitimlly, in computing the
    requirements, the Army should use closest dependent for basic allowance for
    quarkrs codes (BAQ dependent codes) to compute bachelor factors. We also
    recommend tha use of BAQ dependent codes to compute bachelor       factor
    perce&ges that are used in the requirements determination process for all
    Army installations. We further recommendthat the Army request the Defense
    Finance end Accounting Service, Indianapolis provide BAG dependent codes for
    all Army personnel from monthly payroll data that is provided to the Defense
    Manpower Data Center. Finally, we recommendthat the Army obtain BAQ
    dependent codes from the Defense Manpower Data Center for computing
    bachelor factor percentages for Army installations.


I   ACTION TAKEN - Non-Concur

    o The report does not present a convincing argument in favor of the
      recommend&ion to use DFAS in lieu of DEERS for the computation of
      unaccompanied requirements. The only problem stated with DEERS was
      thet it included all service members within a 46 mile radius (catchment
      areas). The DoDlG report should mention the fact that the Army was aware
      of this condition and planned corrective action. This should be adequately
      disclosed in the report. Before their visit to Fort Lewis, a draft of the AAA
      audit report (final report AA 96-69,29 December 1997) identiiing this
      condition, was provided to the DoDIG. Since then, the contractor responsible
      for computing barracks requirements for permanent party soldiers (R&K
      Engineering) has revised computation of determination data. The revised
      data is currently used in the FY66-66 POM build.




I



                                           27
Department   of the Army Comments




             The reportdoas not discws annparingDFAS data to ‘phfiad’ DEERS data,
             whiithakmyisnowusing.      Thedisarssian againstusing DEERS is based
             solelyon the Mar 96 DEERS data (whichincludedpawnnal withina 40 mile
             radius).

             Onatechnicalpoint,thereisnomentiondthedateoftheDFASdataused
             in computingtha raquiremant.U diint   timeframeswefa involved,the
             validityof the cunparisu~ maybe incondusive.

             In addition,it is arguablethat the scopeof the audii one installation.
             providesan adequatebasisfor the aInclusion and recommendation        to
             changathe entire methodology.




                                                 2




                                                28
Audit Team Members

This report was prepared by the Contract Management Directorate, Office of
the Assistant Inspector General for Auditing, DOD.

Paul J. Granetto
Wayne K. Million
Gary R. Padgett
Andrew R. MacAttram
PedroToscano
